BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 20-1197
EUGENE MILTON CLEMONS II,

Petitioner,
V.

JEFFERSON S. DUNN, COMMISSIONER, ALABAMA
DEPARTMENT OF CORRECTIONS, ET AL.,

Respondents.
As required by Supreme Court Rule 33. l(h), I
certify that the Brief for National Association of Social
Workers as Amicus Curiae Supporting Petitioner in
20-1197, Eugene Milton Clemons II v. Jefferson S.
Dunn, Commissioner, Alabama Department of
Corrections, et al., contains 5,913 words, excluding the
parts of the Brief that are exempted by Supreme Court
Rule 33. l(d).
I declare under penalty of perJury that the
foregoing is true and correct.
Executed on March 31, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

I

(800) 890.5001
www.beckergallagher.com

I

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

Notary Public

JOHN 0. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
Febnmry 14, 2023

